<html>
<title> - THE ULTIMATE CIVIL RIGHT: EXAMINING THE HYDE AMENDMENT AND THE BORN ALIVE INFANTS PROTECTION ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                       THE ULTIMATE CIVIL RIGHT:
                   EXAMINING THE HYDE AMENDMENT AND 
                 THE BORN ALIVE INFANTS PROTECTION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION 
                           AND CIVIL JUSTICE

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2016

                               __________

                           Serial No. 114-95

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://judiciary.house.gov
      
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-122 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

           Subcommittee on the Constitution and Civil Justice

                    TRENT FRANKS, Arizona, Chairman

                  RON DeSANTIS, Florida, Vice-Chairman

STEVE KING, Iowa                     STEVE COHEN, Tennessee
LOUIE GOHMERT, Texas                 JERROLD NADLER, New York
JIM JORDAN, Ohio                     TED DEUTCH, Florida

                     Paul B. Taylor, Chief Counsel

                    James J. Park, Minority Counsel
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 23, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution and Civil Justice.................................     1

The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Ranking Member, Subcommittee on the 
  Constitution and Civil Justice.................................     3

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     7

                               WITNESSES

Giana Jessen, Abortion Survivor
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11

Genevieve Plaster, M.A., Senior Policy Analyst, Charlotte Lozier 
  Institute
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15

Kierra Johnson, Executive Director, Unite for Reproductive and 
  Gender Equity (URGE)
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22

Arina O. Grossu, M.A., Director, Center for Human Dignity, Family 
  Research Council
  Oral Testimony.................................................    26
  Prepared Statement.............................................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Steve Cohen, a Representative 
  in Congress from the State of Tennessee, and Ranking Member, 
  Subcommittee on the Constitution and Civil Justice.............     5

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Hearing Question from Genevieve Plaster, M.A., Senior 
  Policy Analyst, Charlotte Lozier Institute.....................    56

Letter from Melissa Ohden, Founder, The Abortion Survivors 
  Network........................................................    57

Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    61
                        OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

Material submitted by the Honorable Steve Cohen, a Representative in 
    Congress from the State of Tennessee, and Ranking Member, 
    Subcommittee on the Constitution and Civil Justice. This material 
    is available at the Subcommittee and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105369
 
  THE ULTIMATE CIVIL RIGHT: EXAMINING THE HYDE AMENDMENT AND THE BORN 
                      ALIVE INFANTS PROTECTION ACT

                              ----------                              


                       FRIDAY, SEPTEMBER 23, 2016

                        House of Representatives

                   Subcommittee on the Constitution 
                           and Civil Justice

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 9:10 a.m., in 
room 2237, Rayburn House Office Building, the Honorable Trent 
Franks (Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, DeSantis, King, Gohmert, 
Jordan, Cohen, and Conyers.
    Also Present: Representative Chu.
    Staff Present: (Majority) Paul Taylor, Chief Counsel; Jake 
Glancy, Clerk; (Minority) Perry Apelbaum, Staff Director & 
Chief Counsel; James Park, Minority Counsel; Matthew Morgan, 
Professional Staff Member; and Veronica Eligan, Professional 
Staff Member.
    Mr. Franks. Good morning. The Subcommittee on the 
Constitution and Civil Justice will come to order. And, without 
objection, the Chair is authorized to declare recesses of the 
Committee at any time.
    We welcome everyone today to this hearing. We are calling 
it ``The Ultimate Civil Right: Examining the Hyde Amendment and 
the Born-Alive Abortion Survivors Protection Act.'' And I would 
now recognize myself for an opening statement.
    Today, we will hear testimony on existing statutory 
language prohibiting taxpayer funding from paying for the 
taking of the lives of pre-born children through abortion. 
There is concern that the Obama administration or a potential 
Clinton administration may intend to reinterpret the plain and 
longstanding meaning of the Hyde amendment. We will also 
examine today the Born-Alive Abortion Survivors Protection Act, 
which would protect human babies who are born alive.
    On this day in the year 2016 in the land of the free and 
the home of the brave, there are no criminal penalties in 
Federal law for either negligently or deliberately killing born 
alive human babies who are living and breathing on the table 
after surviving an abortion.
    More than 7 months ago, the U.S. House of Representatives 
passed the Born-Alive Abortion Survivors Protection Act, with 
bipartisan support, to protect these little children who are 
born alive. More than 90 percent of the American people support 
this kind of legislation, yet we have been unable to even get a 
vote or even a debate in the United States Senate to protect 
innocent born-alive babies from being deliberately subjected to 
cruel and torturous death.
    The people who came upon Kermit Gosnell's clinic in 
Philadelphia and discovered a horrifying scene and several dead 
babies, many of whom had been born alive before being murdered, 
were told by their supervisor that the investigation of 
abortion was not their business. This insidious sense has taken 
hold that if we are dealing with abortion and any of its 
aspects, we were dealing with a ``constitutional right'' which 
overrode or trumped any local law that might protect the 
victims.
    Ashley Baldwin, one of Dr. Gosnell's clinic employees, said 
she saw babies breathing and she described one as 2 feet long 
that no longer had eyes or mouth, but in her words, was making 
like this screeching noise. It sounded like a little alien.
    The abortion industry has labored for all of these decades 
to convince the world that unborn children and born children 
should be completely separated in our minds, that while born 
children are persons worthy of protection, unborn children are 
not persons and are not worthy of protection. But those who now 
oppose this bill to protect born-alive children suddenly have 
the impossible task of convincing themselves and the American 
people that a born-alive premature baby that has survived an 
abortion is just a fetus that should be disposed of and not a 
little human baby, not a little human child worthy of our 
protection as a Nation.
    To any compassionate human being who has not invincibly 
hardened his or her heart or soul, an honest consideration of 
this absurd inconsistency is profoundly enlightening.
    I would earnestly implore in this moment in this Committee 
that the majority leader of the United States Senate, and I say 
this in the most personal of terms, asking him to hold in some 
form a recorded vote on the Born-Alive Abortion Survivors 
Protection Act in the U.S. Senate to provide criminal penalties 
at the Federal level to prevent monsters like Kermit Gosnell 
from murdering innocent born-alive human babies.
    Now, President Obama vetoed similar legislation--voted 
against, forgive me--President Obama voted against similar 
legislation four times before becoming President, and 
astonishingly now has promised in writing to veto this bill if 
it comes to his desk. And I am told Mrs. Clinton holds the same 
position but intends at all costs to avoid revealing that 
during the Presidential campaign.
    Ladies and gentlemen, this is not abortion. This is born 
alive. Born alive. The American people deserve to know where 
candidates for President stand on something so foundationally 
intrinsic to the Republic founded on these core principles that 
all of us are created equal and are children of God.
    The American people still deeply hold themselves to be 
protective of born children, and if those seeking the highest 
office in the land are in opposition to a bill that would 
protect born-alive children, then the American people have a 
right to know this before the most important election in this 
century, and in the last century, on which the core right to 
live contained in the Constitution of the United States itself 
hangs in the balance.
    Turning our backs on helpless born-alive children is not 
who we are as a people, and it is not who the United States of 
America has become as a Nation. Yet it is one of the most 
crucial questions now upon us in this divisive moment in 
history, in this decisive moment of history as well, and the 
implication for this country's soul and future are profound 
beyond words.
    And so I thank the witnesses for being here, and I ask this 
morning that all of us just open our hearts to the truth.
    And I would now recognize the Ranking Member, Mr. Cohen for 
5 minutes.
    Mr. Cohen. Thank you, Mr. Chair.
    It is undisputed that the Constitution guarantees women in 
this country what I believe is the most fundamental and 
personal decision they will ever make about their reproductive 
health--whether or not to have children--and the Supreme Court 
made that clear in 1973 in Roe v. Wade. The Court has 
repeatedly reaffirmed the Constitution's guarantee of this 
right, most recently, in June in Whole Woman's Health Clinic v. 
Hellerstedt.
    There are people, like Mr. Franks and myself, who have 
strong opinions on the issue and diametrically opposed 
positions, and we will not change each other's minds today or 
tomorrow or probably ever.
    So why are we here today when the House of Representatives 
is in recess?
    One week from today marks the 40th anniversary of the Hyde 
amendment, and the Hyde amendment is a rider that is attached 
to appropriations bills that fund the Department of Health and 
Human Services. It bans Federal funding for abortion services 
provided by Medicaid and other Health and Human Services 
programs, with limited exceptions, and that was hard fought, 
for mothers' lives or in the case of rape or incest. Medicaid, 
of course, is the primary public health insurance program for 
low-income Americans.
    And this makes me think back to a program I attended last 
Friday night where Gloria Steinem spoke. And Gloria Steinem 
spoke about the fact that controlling women's reproductive 
processes has been something that men have done for years, and 
tried to do, and they have tried to control women and they have 
tried to control people of different races and people of 
different sexual orientations, because they liked the power 
they had and they wanted to keep it that way.
    And women, in the days of slavery, were very much 
encouraged to have children, because that was good, because you 
needed lots of more property to bring the crops to make the 
money. Then when they came along with the mechanization, they 
didn't need so many people, they started to think less of 
having children. But it was the people at the top, the people 
that owned the land and had the controls, determined a lot and 
wanted to continue to control women's reproductive systems.
    Poor women experience five times the rate of unintended 
pregnancies than more affluent women--five times more--with 
abortion becoming more and more concentrated among low-income 
women as a result. And women of color are disproportionately 
likely to be poor and rely on Medicaid for health services, 
health insurance, and this racial disparity is particularly 
true among women of reproductive age.
    Therefore, the Hyde amendment, when you really look at what 
it does, it bans the funding for abortion services through 
Medicaid, denying low-income and minority women the ability to 
access a safe and legal reproductive health service.
    Perhaps the late Supreme Court Justice Thurgood Marshall, 
one of the greatest men to ever serve on the Supreme Court, put 
it most succinctly when he wrote in 1980 that the Hyde 
amendment is designed to deprive poor and minority women of the 
constitutional right to choose, because that, in effect, is 
what it does.
    Simply put, the opponents to the right to choose cannot get 
what they really want, which is to repeal Roe outright, so 
instead they have chosen to deny the right, as a practical 
matter, to poor women and women of color.
    Most Americans, whatever their views on the right to 
choose, agree that politicians should not be allowed to deny a 
woman health insurance coverage for pregnancy-related care just 
because she is poor, and this includes coverage for abortion 
services. The right to choose is well settled, and the amount 
of money a woman has should not determine whether she could 
exercise her fundamental constitutional right.
    You know, before Roe v. Wade, wealthy women could make 
their ways to Canada or Mexico, and they could get abortions, 
but poor women couldn't. Money has always been a factor.
    I am a cosponsor of H.R. 2972, the ``EACH Woman Act of 
2015,'' introduced by the dynamic and great leader, 
Representative Barbara Lee, who is in the audience and who has 
a statement, which with the permission of the Chair, I would 
like to introduce and make part of the record, without 
exception.
    Mr. Franks. Without objection.
    [The information referred to follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
                               __________
    Mr. Cohen. That, too.
    I thank you for being here. And thank you for all you have 
done. When I was with Ms. Steinem, I asked her about her 
heroes, and you and Maxine Waters were right there among them.
    This bill, which Representative Lee has sponsored, would 
ensure, among other things, that Federally funded medical 
coverage extends to all pregnancy-related healthcare services, 
including abortion services. The unjust burdens that the Hyde 
amendment has imposed on low-income and minority women demand 
that Congress pass H.R. 2972.
    Mr. Franks, I don't know the poll, and I know that you can 
have polls of all kind of natures. I don't know if 90 percent 
of the people support this and how it was phrased. But I do 
know that about 90 percent of the people support no fly, no 
buy, and we can't get a vote on that in the House. And if you 
take some guns from people who are considered too dangerous to 
fly, you will save some people's lives for sure, people who are 
here today, but we don't do it.
    It is time to rescind the Hyde amendment and guarantee that 
all women are able to access quality reproductive healthcare 
services and exercise their constitutional rights without 
regard to their socioeconomic status.
    I yield back the balance of my time.
    Mr. Franks. And I thank the gentleman.
    And I would now recognize the full Committee Ranking 
Member, Mr. Conyers of Michigan, for his opening statement.
    Mr. Conyers. Thank you, Mr. Chairman, and I welcome the 
witnesses for today's important hearing.
    In Roe v. Wade, the Supreme Court recognized a woman's 
constitutional right to make what is perhaps the most personal 
of healthcare decisions--when to start a family--free from 
undue government interference.
    Unfortunately, though, since 1976, Congress has sought to 
undermine this important constitutional right by attaching the 
so-called Hyde amendment to annual appropriation measures 
funding the Department of Health and Human Services. The Hyde 
amendment, of course, is named after a former colleague on the 
Judiciary Committee, Chairman Henry Hyde, which prohibits the 
use of Federal Medicaid funds to pay for an abortion except to 
protect the mother's life or in cases of rape or incest.
    There are many reasons why this restriction should be 
rescinded. To begin with, the Hyde amendment is a blatant 
example of political decisionmaking inappropriately interfering 
in women's healthcare decisions. For more than 40 years, Roe v. 
Wade has been the law of the land, as has been indicated, yet 
it is clear that the Hyde amendment's purpose is to undermine 
the Roe v. Wade constitutional guarantee of a right to choose 
to terminate a pregnancy by limiting low-income women's access 
to safe, legal medical care.
    Political people, elected officials, most of whom are not 
doctors, have little or no business interfering in a woman's 
constitutionally protected private healthcare decisions in 
order to impose their own views about women's rights in health 
care.
    In addition, the Hyde amendment has a disproportionately 
detrimental effect on the health of low-income women and the 
well-being of their families. According to the Guttmacher 
Institute, many low-income women lacking medical coverage are 
forced to delay paying their utility bills, rent, groceries 
even, for themselves or their children, to seek out financial 
assistance from relatives or friends, or to sell personal 
belongings in order to pay for an abortion.
    Moreover, women who cannot afford abortion procedures may, 
in desperation, resort to self-inducing an abortion or turn to 
unsafe, untrained, unlicensed practitioners, heightening the 
risk of injury or death from what is supposed to be a safe and 
legal medical procedure.
    Finally, the Hyde amendment disproportionately affects 
women of color, which has been indicated. Medicaid provides 
medical coverage to 20 percent of women of reproductive age, 
but as a result of social and economic inequality tied to the 
persistence of racism in our society, 30 percent of African 
American women and 20 percent of Hispanic women of reproductive 
age are enrolled in Medicaid compared to just 14 percent of 
White women of reproductive age. Clearly, the consequences of 
the Hyde amendment disproportionately fall on women of color.
    While 15 States permit the use of their own funds to 
provide abortion coverage for Medicaid enrollees, 60 percent of 
reproductive age women enrolled in Medicaid live in States that 
only cover abortion in limited circumstances. Rather than 
undermine the constitutional right of low-income women and 
women of color, Congress should look to these States as an 
example and act to ensure that women, regardless of their 
financial situation, have access to quality comprehensive 
reproductive health services.
    And so I am going to carefully listen to the testimony that 
comes forth, and I thank the witnesses for being with us today.
    And I yield back, Mr. Chairman.
    Mr. Franks. And I thank the gentleman.
    I will now introduce our witnesses. Our first witness is 
Ms. Giana Jessen. Ms. Jessen is an abortion survivor. Our 
second witness is Ms. Genevieve Plaster. Ms. Plaster is the 
senior policy analyst at the Charlotte Lozier Institute. Our 
third witness is Ms. Kierra Johnson. Mr. Johnson is the 
executive director at the organization URGE. Our fourth and 
final witness is Ms. Arina Grossu. Ms. Grossu is the director 
for the Center for Human Dignity at the Family Research 
Council.
    Now, each of the witnesses' written statements will be 
entered into the record in its entirety, and I would ask that 
each witness summarize her testimony in 5 minutes or less. To 
help you stay within that time, there is a timing light in 
front of you. The light will switch from green to yellow 
indicating that you have 1 minute to conclude your testimony. 
When the light turns red, it indicates that the witness' 5 
minutes have expired.
    And before I recognize the witnesses, it is the tradition 
of the Subcommittee that they be sworn. So if you would please 
stand to be sworn.
    Do you swear that the testimony you are about to give 
before this Committee is the truth, the whole truth, and 
nothing but the truth, so help you God?
    You may be seated.
    Let the record reflect that all of the witnesses responded 
in the affirmative.
    And I would now recognize our first witness, Ms. Giana 
Jessen.
    And if you would please turn that microphone on before you 
speak. Pull it there close.
    Ms. Jessen. Okay. Can you hear me?
    Mr. Franks. Yes, ma'am.

          TESTIMONY OF GIANA JESSEN, ABORTION SURVIVOR

    Mr. Jessen. Pardon me. Thank you. Thank you very much for 
giving me the opportunity to speak with you this morning.
    I wish to appeal not only to those present within this 
chamber today, but to my Nation. We are here to discuss 
infanticide. I am greatly troubled that this hearing is even 
necessary and that such a law to prevent infanticide must be 
constructed in the United States of America at all.
    Many Americans have no idea that babies can even live 
through abortions and are often left to die, but this does 
happen. I know this because I was born alive in an abortion 
clinic after being burned in my mother's womb for 18 hours. My 
medical records clearly state the following: Born during saline 
abortion/April 6, 1977/6 a.m./2\1/2\ pounds. Triumphantly, I 
entered this world. I added that part.
    Apart from Jesus himself, the only reason I am alive is the 
fact that the abortionist had not yet arrived at work that 
morning. Had he been there, he would have ended my life by 
strangulation, suffocation, or simply leaving me there to die.
    Instead, I lived and have the gift of cerebral palsy as a 
direct result of lack of oxygen to my brain while surviving an 
abortion. And cerebral palsy, make no mistake, is a tremendous 
gift. I don't know if any of you understand, maybe you do, what 
a tremendous honor it is to have to lean on the strong arm of 
Jesus all the way to heaven. It is my honor, in a country that 
doesn't wish to speak his name, I will.
    So by the grace of God, in my case, a nurse called an 
ambulance and had me transferred to a hospital. That nurse 
saved my life, and I am profoundly grateful to her for this.
    Those who wish to justify such unspeakable evil, such as 
leaving a baby without proper medical care to die, have become 
masters of the manipulation of language, intimidation, and 
defaming their opponents to achieve their wicked aims. As a 
Nation, we are continuously exchanging the truth for a lie. We 
have neglected our soul. And what will it take for us to awaken 
from our numbness and indifference regarding this? Will we ever 
awake?
    I am confounded as well by the passivity so often 
demonstrated by otherwise good and just men, by the fact that 
we must plead with those in power to give the most vulnerable 
infants among us even one moment of their attention.
    This is a bipartisan issue, and I think it is important for 
the American people to weigh at this hour whether or not they 
wish to elect someone to the highest office in the land that 
favors infanticide, because that is what we are speaking of 
here, a child, exactly as I was, that had the audacity to live 
through her mother's abortion and needed immediate and proper 
care.
    So I would like to ask Mr. Trump to tell me, and you, where 
he specifically stands on this issue, and I would ask the same 
of Mrs. Clinton. I would also ask Senator Mitch McConnell to 
force a vote on the Born-Alive Abortion Survivors Protection 
Act before the end of this September.
    I have faced the consequences of our choices as a Nation, 
as evidenced by my cerebral palsy. So if you choose to do 
nothing, I believe I at least deserve to know why you find this 
abhorrent practice tolerable, and I would respectfully, 
respectfully ask that you tell me directly.
    It seems in some ways we have lost our way in this 
beautiful Nation. But it needn't be so. We have only to 
remember that we are lent each breath, that we are all engraved 
upon the hands of God, and therefore cannot for one single 
moment be forgotten by him. We need only to remember Jesus, who 
took me from my mother's womb to be his own.
    Thank you.
    [The testimony of Ms. Jessen follows:]
         Prepared Statement of Gianna Jessen, Abortion Survivor

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________
    Mr. Franks. Thank you, Ms. Jessen.
    And I would now recognize our second witness, Ms. Plaster.
    And if you would turn on your microphone, please.

 TESTIMONY OF GENEVIEVE PLASTER, M.A., SENIOR POLICY ANALYST, 
                   CHARLOTTE LOZIER INSTITUTE

    Ms. Plaster. Chairman Franks, Ranking Member Cohen, and 
distinguished Members of the Subcommittee, thank you for 
inviting me to testify before your Subcommittee during this 
hearing on ``The Ultimate Civil Right: Examining the Hyde 
Amendment and Born Alive Infants Protection Act.'' My name is 
Genevieve Plaster, and I am a senior policy analyst for the 
Charlotte Lozier Institute, a research and education resource 
in Washington, D.C.
    Today, I will focus on the Hyde amendment and its 
measurable impact over the past 40 years. The Hyde amendment is 
an appropriations rider that prohibits the use of Federal funds 
for elective abortion or for health benefits that cover 
elective abortion. As a rider, it is not a permanent law, but 
it has been passed with bipartisan support in every Federal 
funding bill since 1976.
    Amidst legal challenges in its early years, the Hyde 
amendment was reaffirmed as constitutional in 1980 by the U.S. 
Supreme Court in Harris v. McCrae. Though a financial policy, 
the most important measurement of the Hyde Amendment's real 
world effects has not been dollars saved but lives saved. By 
saying that the Hyde amendment has saved lives, I am referring 
to the prevented abortions due to women deciding to continue 
their pregnancies and give birth to their children in the 
absence of Federal funding.
    More than 20 peer-reviewed studies published in academic 
journals have found a reduction in abortion rates following the 
enactment of the Hyde amendment or other similar laws. Numerous 
studies also examining State data show not only the abortion 
rate decreased, but that the birth rate has increased.
    In fact, the Guttmacher Institute, formerly Planned 
Parenthood's research arm, which in prior years received 
millions of funding from the business after still splitting 
with them, conducted its own literature review on the impact of 
the Hyde amendment on abortion rates in 2009. Because the 
decline in abortion was so clear, even the study's authors were 
forced to acknowledge that the ``best studies found 18 to 37 
percent of pregnancies that would have ended in Medicaid-funded 
abortion were carried to term when public funding was no longer 
available.'' We then rightly acknowledge that the Medicaid-
funded births of these individuals are lives saved due to the 
Hyde amendment.
    In a forthcoming study, the Charlotte Lozier Institute's 
associate scholar, Dr. Michael New, calculates the best 
estimate for how many lives have been saved by the Hyde 
amendment. With a rigorous methodology, Dr. New identified 
solid appropriately designed studies that examine the decrease 
of abortion rates following the enactment of a public funding 
limitation.
    Finding the average of decrease to be 1.52, he applies this 
rate to State-specific data, namely the number of years and 
months that each State has had the implementation, as well as 
each State's abortion rate.
    The study's major conclusion is that the Hyde amendment has 
saved more than 2 million lives since 1976, 2 million 
Americans. That is approximately the entire population of the 
city of Houston, the fourth-largest city in the U.S. Two 
million Americans is the entire population of the State of New 
Mexico.
    From another angle, the study also calculated that the Hyde 
amendment saves approximately 60,000 lives each year. Among 
just the seven States that each of you and your constituents 
call home, the Hyde amendment has saved approximately 700,000 
lives since its enactment. That is, in Arizona, 55,000 lives 
were saved; in Florida, 166,000; in Iowa, 33,000; in Ohio, 
131,000; in Tennessee, 66,000; in Texas, the highest number of 
lives saved at nearly a quarter million, 248,000. And finally 
in New York, regretfully, no lives have been saved due to the 
Hyde amendment because the State has had State-funded abortion 
since 1976 till today.
    This real world impact bears repeating. In just these seven 
States represented, 700,000 lives have been saved by the Hyde 
amendment.
    From another perspective, CLI scholar Dr. New explains that 
we can also say one in nine people born under Medicaid in a 
State that does not have a Medicaid-funded abortion program was 
saved thanks to the Hyde amendment.
    Lest we lose sight of the qualitative reality of 2 million 
lives, let us consider a brief story of Claire, a young woman 
who experienced an unplanned pregnancy at age 17. In a recent 
news article that was just published the other week, she said 
that at that time, ``I felt hopeless and alone.'' She explained 
that if Medicaid funding for an abortion had been available to 
her, it would have been very tempting to go ahead and have that 
abortion.
    Instead, she reached out for support, was accompanied to a 
pregnancy care center, where she saw the first ultrasound of 
her young son, and decided to continue this pregnancy. Now, a 
year later, Claire reflects, ``I don't know what I would do 
without him. That is my baby.''
    Of the 2 million lives saved by the Hyde amendment, one can 
only wonder how many other of the mothers were in a similar 
situation.
    In conclusion, the Hyde amendment has enjoyed bipartisan 
support for 40 years, was reaffirmed as constitutional in 1980, 
enjoys support from nearly 7 in 10 Americans, including even 51 
percent of those who identify as pro-choice, 44 percent of 
those who are Democrats, 65 percent of African Americans, 61 
percent of Latinos, and finally and most importantly, has saved 
an estimated 2 million lives.
    For these compelling reasons, the protective language of 
the Hyde amendment should not only be retained as enforced 
policy but should also be codified as permanent law.
    Thank you for inviting me to testify today.
    [The testimony of Ms. Plaster follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                               __________
                            
                             
                               
                               
                               
    Mr. Franks. Thank you, Ms. Plaster.
    And I would now recognize our third witness, Ms. Johnson.
    And, Ms. Johnson, if you would make sure that microphone is 
turned on.

  TESTIMONY OF KIERRA JOHNSON, EXECUTIVE DIRECTOR, UNITE FOR 
             REPRODUCTIVE AND GENDER EQUITY (URGE)

    Ms. Johnson. Good morning. Thank you for the opportunity to 
appear before you today to speak about the Hyde amendment, one 
of our Nation's most harmful and shameful policies, one that 
singles out low-income women and interferes with their personal 
decision about whether to end a pregnancy.
    My name is Kierra Johnson, and I am the executive director 
of URGE, Unite for Reproductive and Gender Equity, and as a 
steering committee member of the All Above All campaign, a 
campaign led by more than 150 reproductive health, rights, and 
justice organizations united to lift the bans on abortion 
coverage.
    Safe quality abortion services should be available, 
regardless of a woman's ability to pay, her source of 
insurance, or where she lives. However, since the passage of 
the Hyde amendment in 1976, the appropriations process has been 
used as a vehicle to systematically deny meaningful access, 
access to poor women, and has expanded to harm many others.
    As a result of the Hyde amendment and its extended reach 
into similar restrictions, nearly 29 million women of 
reproductive age do not have insurance coverage of abortion. 
Each restriction, each ban is intended by anti-abortion 
politicians to further their ultimate goal of pushing abortion 
out of reach for as many people as possible.
    For those who are struggling to get by, disproportionately 
women of color, low-income women, young women, immigrant women, 
a coverage ban might as well be a ban on abortion altogether. 
Studies have shown that restricting Medicaid coverage of 
abortion forces one in four low-income women seeking abortion 
to carry an unwanted pregnancy to term.
    The Hyde amendment creates one of the most onerous barriers 
to abortion care. Just listen to the voices of those who have 
felt the impact of these bans.
    Kendall from Colorado says, ``I found out I was pregnant, 
and I was deceived by the center I visited because it ended up 
being an anti-choice crisis pregnancy center. After that, I 
struggled for weeks to find resources, the last $200. I have 
been anxious, frantic, and terrified. My health has declined, 
and I believed there was little to no hope until today when I 
was finally able to access an abortion.''
    A second woman recounts, ``Here is what it took for me to 
gather the money for my abortion. It was hard. It took 3 weeks. 
The payday loan I took out for my abortion wiped out my entire 
account. I got a 3-day notice on my apartment door, and things 
started to spiral out of control. And then, when I became 
evicted, I lived in a shelter temporarily.''
    As a Black woman, I am outraged that the morally bankrupt 
Hyde amendment has been permitted to persist for so long. It is 
a source of pain for many women and should be a source of shame 
for those who support it.
    The time for policies that visit indignity and deprivation 
on women, including Black women is over. Last year, 
Representatives Barbara Lee, Diana DeGette, and Jan Schakowsky 
made history by introducing the Equal Access to Abortion 
Coverage and Health Insurance Act, the EACH Woman Act. This 
bold legislation respects that each of us, not just some of us, 
should be able to make our own decisions about pregnancy and 
prohibits politicians from interfering by withholding coverage 
for abortion care. With this bill, we are saying that all of us 
should have access to the same coverage and options, 
independent of income, ZIP code, or source of insurance.
    This legislation now has more than 120 cosponsors in the 
House and the support of the American people. Polling released 
last July shows that a majority of Americans would support a 
bill requiring Medicaid to cover abortion.
    A right without access isn't a right at all. In the EACH 
Woman Act, I see the transformational power of centering the 
lives, struggles, and aspirations of those for whom the legal 
right to a safe abortion has not yet been made a reality. But 
that reality is within our reach. We can work together to build 
a future where women's decisions are treated with respect and 
we can get the healthcare we need with dignity and compassion.
    Thank you.
    [The testimony of Ms. Johnson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                               __________
    Mr. Franks. Thank you, Ms. Johnson.
    And I would now recognize our final witness, Ms. Grossu.
    And if you make sure that microphone is on.

TESTIMONY OF ARINA O. GROSSU, M.A., DIRECTOR, CENTER FOR HUMAN 
                DIGNITY, FAMILY RESEARCH COUNCIL

    Ms. Grossu. Chairman Franks, Ranking Member Cohen, and 
distinguished Members of the Subcommittee, I am grateful and 
honored to have been invited to testify today in support of the 
Born-Alive Abortion Survivors Protection Act.
    In 2000 and 2001, Jill Stanek testified before this 
Committee about her experience as a registered nurse where she 
discovered babies born alive after an attempted abortion and 
left to die in the department's soiled utility closet.
    In 2002, Congress responded by passing the Born-Alive 
Infants Protection Act, which was signed by President George W. 
Bush and is current Federal law. It passed by voice vote in the 
House and with unanimous consent in the Senate.
    Unfortunately, incidents involving born-alive children 
being killed after an attempted abortion have continued after 
this law and into the present.
    Infanticide is unacceptable in a civilized society, 
regardless of what one may think about abortion itself. Up to 
2010, abortionist Kermit Gosnell operated his dirty and 
dangerous abortion facility where he did hundreds of snippings 
of born-alive babies as part of his abortion process. The grand 
jury report noted many of the women ``gave birth before he even 
got there. When you perform late-term 'abortions' by inducing 
labor, you get babies. Live, breathing, squirming 
babies...Gosnell had a simple solution for the unwanted babies 
he delivered: He killed them...by sticking scissors into the 
back of the baby's neck and cutting the spinal cord.'' See, for 
example, the image of Baby Boy B, who was found in his 
facility.
    Federal and State authorities finally raided his facility 
not because he was illegally killing born-alive infants, but 
because of his illegal prescription drug activity.
    While Gosnell's case was particularly gruesome, he is not 
an outlier. A former employee of current Texas abortionist 
Douglas Karpen described how he regularly killed babies born 
alive by snipping their spinal cords, fatally injuring them 
with blows to the soft spot on their heads, and twisting their 
necks.
    She said, ``I am pretty sure I was seeing at least three or 
four large babies that were completely delivered in some way or 
another daily...When the fetus would come completely out, of 
course the fetus would still be alive, because it was still 
moving. Of course you could see the stomach breathing, and that 
is when he would do this.''
    Yet despite the gruesome photo and eyewitness evidence, 
Karpen was cleared in December 2013.
    The Center for Medical Progress, in its investigative 
videos, authenticated by an in-depth forensic analysis report, 
revealed a lot of evidence of babies killed after being born 
alive. For example, Perrin Larton, a procurement manager from 
Advanced Bioscience Resources, said, ``The whole point is not 
to have a live birth. I literally have women come in and say 
they will go into the OR and they are back out in 3 minutes, 
and I am going, 'What is going on?' Oh, yeah, the fetus was 
already in the vaginal canal whenever we put her in the 
stirrups. It just fell out.''
    Holly O'Donnell, a former procurement technician with 
StemExpress, recounted one incident where her supervisor said, 
``'Want to see something kind of cool?' And she just tapped the 
heart and it started beating. And I am sitting here, and I am 
looking at this fetus, and its heart is beating.''
    Data that the CDC collects also confirms that babies are 
born alive after attempted abortions. Between the years 2003 
and 2014, there were somewhere between 376 and 588 infant 
deaths under the medical code P96.4, which keeps track of 
babies born alive after the termination of pregnancy.
    The CDC concluded that of the 588 babies, 143 were 
definitively born alive after an attempted abortion, and they 
lived from minutes to 1 or more days, with 48 percent of babies 
living between 1 to 4 hours.
    It also admitted that it is possible the number is an 
underestimate. We know it is an underestimate because these are 
just the reported numbers from hospitals, not from the abortion 
facilities.
    Gosnell is only one abortionist who is responsible for 
hundreds of snippings of born-alive babies, yet he did not 
report even one. His numbers alone exceed the definitive 
numbers of the CDC.
    Even one baby born alive after an attempted abortion who is 
then killed is one too many, but we are talking in hundreds of 
reported ones. Yet not one person, to date, has been charged or 
convicted under the current Federal law.
    Due to developments in technology, babies who are 
considered extremely pre-term can now survive outside the womb 
as early as 20 and 21 weeks post-fertilization, recent science 
journals articles announced, with 67 percent surviving after 
receiving active care.
    Here, for example, is Lucas Moore, who was born at 21 weeks 
post-fertilization and 1 year later. Dr. David Burchfield, the 
chief of neonatology at the University of Florida, said, ``It 
confirms that if you don't do anything, these babies will not 
make it, and if you do something, some of them will make it.''
    This is why we need the proposed Born-Alive Act. It 
explicitly requires healthcare practitioners to treat born-
alive abortion survivors with the same care they would treat 
any other born-alive baby and admit such babies immediately to 
the hospital. It provides enforcement mechanisms, such as 
criminal sanctions and penalties, to hold abortionists 
accountable for killing born-alive infants. And the bill also 
expressly excludes any prosecution of the mother of a baby born 
alive, and it gives her a private right of action to seek 
relief if the abortionist were to kill her born-alive baby.
    The White House has promised that it would veto the born-
alive legislation, citing it would have a chilling effect. I 
cannot think of a more chilling effect than continuing to let 
U.S. abortionists commit infanticide.
    Born-alive babies after attempted abortion are already 
recognized as legal persons since the 2002 born-alive law. The 
proposed Born-Alive Abortion Survivors Protection Act simply 
recognizes the obligations that follow from this reality, to 
ensure that babies born alive after attempted abortions will be 
given the best medical care available and full and equal 
protection under our laws. I earnestly ask that you support 
this bill to stop infanticide in the United States.
    Thank you.
    [The testimony of Ms. Grossu follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Franks. Thank you, Ms. Grossu.
    Mr. Jordan. Mr. Chairman.
    Mr. Franks. Does the gentleman have a question?
    Mr. Jordan. Would you yield for just a second. Mr. 
Chairman, I have got to run to a different Committee. I just 
wanted to thank our witnesses.
    Mr. Franks. Could I yield to the gentleman first? I think 
that there was a video that the gentleman was going to allow. 
Could I yield to the--I will yield to the gentleman first for 
questions. We will not begin our question time, and I will 
yield to the gentleman first.
    Mr. Jordan. I don't have a question. I just have to be at 
another hearing.
    Mr. Franks. Then would you yield for the video?
    Mr. Jordan. I will yield for the video, sure.
    Mr. Franks. All right. If you will start the video there. 
Thank you, Mr. Jordan.
    What we will do, I will go ahead--what we are going to do 
is we are going to go ahead and suspend for the moment, and I 
will recognize Mr. DeSantis for 5 minutes.
    And thank you, Mr. Jordan.
    Mr. Jordan. Mr. Chair, I have got to run out of here. I 
want to just thank all our witnesses, in particular Ms. Jessen 
for her powerful and compelling story. I have got to run to 
another hearing.
    Mr. Franks. Thank you, sir, for being here.
    Mr. DeSantis. Thank you, Mr. Chairman.
    The Born-Alive Infants Protection Act of 2002 clarifies 
that infants who are born alive during abortions or attempted 
abortions are afforded all legal protections enjoyed by other 
persons in the United States.
    Would you support amendments to that Federal Born-Alive 
Infants Protection Act to protect infants born into these 
incredibly vulnerable circumstances by providing a requirement 
that abortion providers or their staff immediately call 911 for 
an emergency transfer to a hospital of an infant born alive at 
a clinic in those circumstances?
    Ms. Johnson. I am not a medical professional, and what I do 
know is that there are leading medical organizations that have 
come out in opposition to this bill. I know that there has been 
testimony that has been provided for the record, and I think, 
for me, yielding to their expertise is where I would go.
    Mr. DeSantis. But why would you--I mean, to me, it is not a 
question of--I mean, if you have an infant that is born alive, 
I mean, we have obviously had very powerful testimony, what 
would you lose by providing the infant treatment at that point?
    Ms. Johnson. We currently have laws that hold doctors to 
high standards of care in this country. So, for me, I don't 
understand why we would necessarily need an additional law 
around this. But again, I am here as a witness around the Hyde 
amendment, and like I said, I think there is testimony around 
this.
    Mr. DeSantis. Well, let's talk about the Hyde amendment. 
Would you agree that from a policymaker's perspective, if there 
is something that you don't like and you tax it, you are likely 
to get less of it, correct?
    Ms. Johnson. I am sorry. Can you restate that?
    Mr. DeSantis. If there is something that you don't like as 
a policymaker, cigarettes, let's say, and you tax it, you will 
get less people to buy cigarettes, correct?
    Ms. Johnson. Not necessarily
    Mr. DeSantis. Okay. So if you tax something, you get less 
of it. You disagree with that. I have think most economists 
would say that is connect.
    If you subsidize something, you then get more of it. Do you 
agree with that or no?
    Ms. Johnson. What I agree with is that women choose 
abortion services, and abortion----
    Mr. DeSantis. That is not what I asked, though. I asked 
that by providing taxpayer subsidies for something, you are 
likely to get more of that, correct?
    Ms. Johnson. I am not sure--I mean, are we talking about 
public insurance?
    Mr. DeSantis. I am talking about generally. So, for 
example, I think your testimony, after listening to it, it 
seems to be that you are upset that there is not public money 
being provided for abortions, and to me, the takeaway from that 
is the policy outcome that you are seeking is to increase the 
number of abortions that are done in the United States. Is that 
accurate?
    Ms. Johnson. No.
    Mr. DeSantis. Why would you not get more if you are 
subsidizing the conduct?
    Ms. Johnson. Women choose abortion as a part of their 
health care.
    Mr. DeSantis. But that has nothing to do--but that is a 
different question from whether the taxpayer should subsidize 
it. Yes, people have the ability to choose one way or another. 
People have the ability to choose to do other things in other 
aspects of life. The question is, is by putting the weight of 
the taxpayer behind something, you will inevitably lead to 
increases in abortions, will you not?
    Ms. Johnson. Well, the American public is in support of 
Medicaid covering a full range of pregnancy options.
    Mr. DeSantis. That wasn't the--that is not the question. I 
didn't ask what the American public is for. I am saying, what 
you are arguing, I just want to tease out the implication, is 
that you are effectively arguing that we need to increase the 
amount of abortions that are conducted in the United States.
    Ms. Johnson. We need to increase the ability for women to 
make the decisions that they want to make.
    Mr. DeSantis. Well, the ability is there. The question is, 
how you are going to apply the taxpayer's use of tax dollars? 
And I think that by not answering the question, I think you 
have answered it, which is effectively, under your testimony, 
you would see more abortions in the United States.
    And it is a difference between whether you can get one or 
not. I think most people, even people on either side of the 
pro-life issue, there has been a general consensus in society 
we would like to reduce the number of abortions in any way that 
we can.
    So one final question just, Ms. Grossu, before my time has 
expired.
    Ms. Johnson, she said she wasn't here to talk about the 
born alive, but she said, why would that be necessary? So I am 
going to ask you, why would we need to do amendments to the 
Born-Alive Act?
    Ms. Grossu. Thank you, Congressman.
    Essentially, there have been no prosecutions under current 
Federal law. So the Born-Alive Act, which passed in 2002, not 
one abortionist, not one facility has been convicted under 
this, although the CDC reports that there are at least 143 
born-alive infants after attempted abortions. So what happened 
to those infants? Were they given care?
    And so the question is, this bill, what this bill does is 
it requires and it creates an enforcement mechanism so that if 
an abortionist does not provide immediate care to a born-alive 
infant, that that abortionist is going to have to face 
violations and fines and criminal penalties for this, and it 
protects the mother, too, from any kind of criminal penalties.
    Mr. DeSantis. Thank you. My time has expired. I yield back
    Mr. Franks. I thank the gentleman, and I now recognize the 
Ranking Member for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chairman.
    First, I would like to introduce for the record letters 
from 18 health provider organizations, different religions, 
different medical specialties, et cetera, into the record.
    Mr. Franks. Without objection.*
---------------------------------------------------------------------------
    *Note: The submitted material is not printed in this hearing record 
but is on file with the Subcommittee, and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105369
    Mr. Cohen. And then I would like to yield my time to the 
only woman who is here on the panel that can most appropriately 
ask questions on behalf of the majority----
    Mr. Franks. All four of our panelists are women, of course.
    Mr. Cohen. I apologize, on the congressional panel, and who 
represents the majority population sexually in this country, 
Ms. Chu.
    Ms. Chu. Thank you, Congressman Cohen. I appreciate the 
time. And please excuse me. I will have to leave right after 
this because I have to catch my flight back to Los Angeles.
    I want to thank Kierra Johnson for testifying today and for 
bringing to light the negative impact that the Hyde amendment 
has on women all across the United States. For 40 years, the 
Hyde amendment has been used to deny a woman coverage for 
abortion just because she is poor; and because of social and 
economic inequality, women of color are even more 
disproportionately impacted.
    A low-income woman is able to use Medicaid for her 
healthcare needs, except in one area, abortion, due to the Hyde 
amendment. Because of the lack of funds, she is crippled from 
making one of most critical health decision she could ever 
make, a personal decision best made by her and her doctor and 
not politicians.
    In order to pay for the abortion, she may forego paying 
utility bills, rent, or food, or sell personal belongs, but 
then, due to the time she uses raising the funds, she risks 
delays and a more difficult abortion.
    If that does not work, she may, in desperation, decide to 
seek a dangerous illegal abortion from an untrained or 
unlicensed practitioner. And if she cannot find the funds at 
all and goes on to give birth, she stands a greater chance of 
slipping deeper into poverty, finding no way out.
    Even though all American women have the constitutional 
right to an abortion, the Hyde amendment is a law that 
objectively stops low-income women from being able to exercise 
their full rights.
    We must ensure that every American woman can access their 
constitutional right to an abortion. We must end the Hyde 
amendment.
    Now, there are 15 States that have done this with a policy 
to cover abortion with State funds and who do so in practice. 
Women in these States are so fortunate because they can 
actually make decisions over their own lives. Unfortunately, 
this leaves the women who live in the rest of the 35 States 
with no alternative.
    But there is a bill in Congress that remedies this 
situation. Congresswoman Barbara Lee is the author of the EACH 
Woman Act. Her bill would ensure that abortion coverage is 
available not just for wealthy women, but for all women. Her 
bill would ensure that the constitutional rights of all women 
are upheld.
    I am proud to be a cosponsor of this bill and to be one of 
120 cosponsors of this bill in the House of Representatives, 
all of whom believe that it is time for the Hyde amendment to 
end.
    And I would like to ask Kierra Johnson two questions. For 
one thing, there was a witness who said that the public 
supports the Hyde Amendment; however, it is my understanding 
that the public agrees that the Hyde amendment should end and 
that a woman should be able to determine her access to health 
care and abortion services. That is question number one.
    My other question is, under the Hyde amendment, States are 
permitted to use their own funds to provide abortion coverage 
to Medicaid recipients. Of course, 15 States have chosen to do 
this. Do you find that in these States that use their own funds 
women have overall better healthcare outcomes because of better 
access to family planning?
    Ms. Johnson. Thank you, Congresswoman.
    It is true, the majority of Americans support the lifting 
of abortion bans, including the Hyde amendment, and they 
support that Medicaid cover a full range of pregnancy options, 
including abortion services.
    And when women have access to abortion, when they can 
afford abortion, the quality of life of women and their 
families improves. Studies are showing that.
    A woman who seeks an abortion but is denied is more likely 
to fall in poverty than one who obtains one. And I mentioned 
earlier in my testimony that the burden does fall hard on low-
income women. Restrictions on Medicaid coverage of abortion 
forces one in four women, poor women, seeking an abortion to 
carry an unwanted pregnancy to term. This also compounds other 
health disparities facing women of color and low-income women 
of color across the Nation.
    And so the short answer is, yes, we do see improved quality 
of life for women, but not just women, for their families and 
for their children and for their communities.
    Ms. Chu. Thank you.
    I yield back.
    Mr. Franks. I thank the gentlelady.
    And I would now yield to Mr. King from Iowa for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses for your testimony.
    I would start with, as I listened to Mr. Cohen's opening 
remarks, he said that, ``Women have an undisputed right to 
abortion.'' And that caught my ear, because I dispute that. I 
dispute the decision of Roe v. Wade and Doe v. Bolton. I 
dispute the rationale that they contrived to or arrive at the 
decision that I think was preconceived, and then they created 
the legal rationale to get to their conclusion.
    And one of the rebuttals that I would offer for such a 
thing is that we know this: America was founded on the concept 
that our rights come from God. And when our rights come from 
God, how would it be possible that those rights could confer a 
right to kill a baby?
    And so I pose that question for deliberation, and I hope a 
lot of people across this country begin to think about the 
sacred nature of human life and about the moment that life 
begins.
    This right to choose being well settled is also a component 
of that opening statement, with which I disagree. It is not 
well settled. It has been a fight for 43 years, and it will be 
a fight until it is over. But what we are seeing is for the 
ultrasound, science expanding, watching babies move, burp, 
laugh, react to outside stimuli in the womb, the personalities 
that one can discern by seeing the ultrasound.
    I have a staff person in my Sioux City office, and I will 
give you his name. He is State Senator Bill Anderson. On his 
bookcase, he has framed the ultrasound of his first born. And 
he knew he was a father when he saw that.
    I would turn, first, to Ms. Plaster. And you gave us some 
valuable data, I believe. And some of this data--I would ask 
this question, of the roughly--and I don't remember the name--
the number you gave us, but roughly 60 million abortions have 
been committed in this country since Roe v. Wade or in that 
zone. If you have a more precise number, I am happy to hear it. 
But I wanted to ask you, what percentage of those abortions 
were Black babies?
    Ms. Plaster. Thank you for the question, Congressman.
    I do think I have a more--I think it is closer to about 55, 
56 million abortions now since Roe v. Wade was decided.
    And to your question about how many of those, I can't say 
that I have it in front of me at this moment, but I would be 
happy to look that up and provide it to the Subcommittee.
    Mr. King. I would ask you to enter into the record if you 
would provide that information to this Committee.
    Ms. Plaster. I will.
    Mr. King. Thank you. And how soon do you think you can do 
that.
    Ms. Plaster. Today.
    Mr. King. That would be excellent.
    And would your estimation be that if the Black population 
is 12 to 13 percent of the overall U.S. population, would you 
expect that that percentage of Black abortions would be greater 
or lesser than the representation in the overall population?
    Ms. Plaster. Thank you. Studies have shown that it is 
greater, according to the CDC. And the Guttmacher Institute has 
even more accurate information, because the abortion centers 
give their information directly to Guttmacher. Many States do 
not have a mandatory law to submit abortion records to the CDC 
or their State health department. So according to Guttmacher, 
yes, it is, African Americans are disproportionately 
represented in the abortion.
    Mr. King. Would you have any idea why that is not being 
called genocide by the Black community?
    Ms. Plaster. Thankfully, I know that there are good pro-
life organizations that--good pro-life Black organizations that 
are calling attention to this. And I know that, for instance, 
Ryan Bomberger has done a great job in calling attention to 
this as genocide.
    Mr. King. Thank you.
    Ms. Johnson, if one were to be there at the delivery of a 
litter of puppies, and as a puppy was partially delivered took 
a device and either crushed the skull or sucked the brains out 
of that baby, would you be committing a crime in most States?
    Ms. Johnson. I couldn't speak to what is considered a crime 
with puppies.
    Mr. King. If I asked you to research that and come back to 
this panel with a response in the fashion that Ms. Plaster has 
promised, could you do that? Would you do that? I know you 
could do that. Would you?
    Ms. Johnson. I could, and I could also talk to you about 
the research and the anecdotal information I have about Black 
communities.
    Mr. King. And I think that is valuable information. Not the 
subject of this hearing.
    Ms. Johnson. I would love to talk about Black communities 
if you would like me to.
    Mr. King. But I am asking you a specific question. Would 
you deliver that information to me? I have asked you if you 
believe that would be committing a crime in the several States. 
And I am going to ask you to answer this formally back to this 
Committee.
    But I would tell you the answer, and the answer is, yes, it 
would be. And the contrast is that as it stands, as you are 
advocating, you cannot do to a puppy what is now currently 
legal to do in America to a baby created in the image of God, 
and that is the center of this topic here today.
    I thank all the witnesses, and I yield back the balance of 
my time.
    Mr. Franks. I thank the gentleman.
    And I would now yield to the Ranking Member of the full 
Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    This has been a fascinating subject here that I didn't 
realize was so emotional to so many people both on the panel 
and in the audience.
    But let's start with you, Ms. Johnson. I want to begin by 
asking you just to go over the impact that you think women of 
color receive and are affected by the Hyde amendment itself. 
Could you do that for me?
    Ms. Johnson. Certainly. Thank you, Congressman.
    Women of color, young women, low-income women are 
disproportionately affected by the Hyde amendment. The reality 
is that healthcare disparities exist for women of color, for 
people of color, across healthcare issues, and reproductive 
health is no different. A lack of health insurance, a lack of 
affordability of health care, meaning a lack of an ability to 
even think about paying out-of-pocket, a lack of sexual health 
information, a lack of access to contraceptive services, in 
addition to stigma and shame, right, compounds these issues.
    And that means higher rates of unintended pregnancy for 
women of color, which means we have to make sure that a full 
range of options, including abortion, are accessible, because 
when they are not, particularly for low-income women of color, 
there is a greater chance of them falling further and deeper in 
poverty.
    Mr. Conyers. Thank you. Does the Hyde amendment, in your 
view, affect the quality of health care that low-income women 
receive?
    Ms. Johnson. The Hyde amendment prevents women from even 
being able to make a decision about their health care. So, yes. 
I mean, that alone, not being able to access, right, 
economically access the decision that you have made, the health 
care that you have chosen, of course that impacts the quality 
of health care.
    We just heard about how does this affect Black women and 
Black families and Black communities. The reality is that we 
cannot possibly think that helping Black women is going to 
happen by taking yet another opportunity to take decisionmaking 
away from them. That is not the way for us to support and 
respect Black women and Black families.
    Women of color want more access to health care, not more 
barriers to health care. They want more child care and 
affordable options of child care. Women want, particularly 
Black women, an answer to the high maternity mortality rates in 
our communities.
    And so the Hyde amendment means adding, right, it means 
providing a full range of options for women so that women can 
make the best decisions for their health care.
    Mr. Conyers. Thank you.
    My last question is how do you think legislators, we in 
Washington, are we best positioned to make decisions about a 
woman's health and well-being, and how do we get better at it?
    Ms. Johnson. Abortion can be a complex issue, and people 
have opinions. People have feelings. People have thoughts. But 
however we feel about abortion, we should not deny poor women 
access to it because they are poor.
    So as legislators, creating ways that give decisionmaking 
back to women is a positive step forward. And the 
decisionmaking around reproductive health and rights issues, 
right, when we are making decisions about whether to be 
pregnant and whether to parent, give us the space and 
opportunity to be able to do that with our doctors, with our 
loved ones, with our families, and in the context of the 
situations and circumstances we are in.
    Mr. Conyers. Thank you very much for your responses and for 
being with us at this hearing. I think this is one of the ways 
that we will become more thoughtful about the complexity of 
abortion and what it means to low-income women. Thank you so 
very much.
    Ms. Johnson. Thank you.
    Mr. Conyers. And I yield back, Mr. Chairman.
    Mr. Franks. I thank the gentleman.
    And I now recognize the gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    I won't be cheering today or clapping when I hear that, 
basically, the propaganda campaign that Margaret Sanger 
started, because she believed, she knew in her heart we will be 
better off if women who are poor and women of color are 
encouraged, pushed to have abortions, basically convince them 
to have genocide. It has worked. Of course, it 
disproportionately affects women of color and poor women. That 
is the design of abortion. That is the design of eugenics.
    And I would like to yield the rest of my time for a video.
    [video shown.]
    Mr. Gohmert. I yield back.
    Mr. Franks. I thank the gentleman.
    I am going to recognize myself now for 5 minutes for 
questions.
    I have had both the privilege and the burden of dealing 
with this issue for a very long time, because a long time ago I 
came to a very stark realization that these were really babies. 
And if I believed that we are all created equal, if I believed 
that every child is a child of God, if I believed that every 
child was important, then it became important to me to try to 
do what was possible to live out that ideal of the Founding 
Fathers that we hold these truths to be self-evident, that we 
are all created equal and that every person would have a chance 
to live.
    EDTR ROSEN
    Mr. Franks. And I don't know how this debate has developed 
the way it has where Americans seem to be so at each other, 
because we have been here before. You know, a lot of times, my 
friends on the left, they attack us for using the example of 
Dred Scott. The reason that it is used so often is because it 
is so profoundly parallel. The Supreme Court comes along and 
says, the African American slave is not a person. And there 
were those who believed that wasn't true. There were those that 
believed that this was a human being worthy of protection, and 
they stood up and did everything that they could to do that, to 
change that. And, finally, we changed.
    And now we look back, and there is not too many people that 
would argue that case anymore. They see the personhood. And 
sometimes when we finally see the humanity of the victim and 
the inhumanity of what is being done to them, somehow it begins 
to dawn on you.
    And I--I pray that somehow when we are talking about born-
alive children, that a light goes on. That we realize if we are 
not going to protect born-alive babies, then we have allowed 
ourselves to be dragged into that Samarian night where the 
light of human compassion has gone out, and the survival of the 
fitness has prevailed over humanity. And I pray that day has 
not come to America.
    And I heard a testimony today that gave me great hope, 
because, Ms. Jessen, you are living proof that when babies 
survive abortion, they go on to bring a loving, noble message 
to humanity. And I just--I know you have said some things to 
our Committee here, but I would just ask if you have anything 
else that you would like to tell America regarding the 
protection of babies born alive that have survived abortion?
    Ms. Jessen. Thank you, Congressman. I would like to thank 
you for being such a man of such great courage.
    And I would--I have been listening in the hearing today, 
after speaking, after explaining that I lived through an 
abortion. Often, when I am in the midst of abortion advocates, 
they never can answer this one question, and it is this: If 
abortion was merely about--is merely about women's rights, then 
what were mine? And I have been listening to the great round of 
applause for the ending the lives of these children, but these 
very same people behind me applauding, I would like to tell you 
that if need be, I would lay my life down for you, because no 
greater love has a man than this, than to lay down his life for 
his friend. And so as I listen to you applaud for--for--for 
death, I want to tell you how valuable you are.
    And to America, I would say this, wake up. And, you know, 
we are so worried about every single other issue under the sun, 
and we--we don't talk about this one. We are embarrassed by the 
social issues. We are embarrassed by the people that love God, 
and we are embarrassed by defending the most vulnerable among 
us, and we wonder why we have people killing each other. We 
have got our priorities wrong. We have abandoned God. We are 
embarrassed by him, and we will not remain free without him.
    So I would call on my Nation to repent. What a word. We 
don't say that anymore. But I would call on my Nation to have--
to--that God would wake us up. And--and--yeah. That is what I 
would say. I don't feel it was quite articulate, but here you 
are.
    Mr. Franks. Your message is heard in the context of your 
life, my lady.
    I would like now to begin a second round of questions.
    And I would recognize the gentleman from Texas, Mr. 
Gohmert, for 5 minutes.
    Mr. Gohmert. Thank you. And I appreciate our witnesses 
being here, and I mean all of them. It is important that people 
have a chance to speak what they believe.
    As a former attorney and judge and chief justice, I look at 
the way the law in America has developed. Most of us think the 
Dred Scott decision was perhaps the worst decision in American 
history. How in the world could people prevail before our 
highest court in the land by saying these slaves are my 
property. I paid for them. I own them. The U.S. Government has 
no right whatsoever to tell me what I can do with my own 
property any more than they can tell me what I can do with my 
own body. It is my right to own another person. And the Supreme 
Court, to their great shame, said that is right. This is your 
property. The U.S. Government has no right to interfere with 
what you choose to do with your property.
    I would encourage, Mr. Chairman, people who think Margaret 
Sanger was a hero, to go back and look at the things that she 
advocated in the way of eugenics. She believed that people who 
were poor, people of color, were genetically flawed and, 
therefore, it was a good thing to push them to have abortions. 
And if they couldn't be convinced, then, you know, forcibly 
sterilize them, because we need to be moving toward a higher 
plain of human being, not realizing that by what she advocated, 
she was bringing humanity down to the lowest possible level, 
the level of the animal kingdom where you can kill or destroy 
if it suits you.
    So we have heard about the inappropriate intervention into 
healthcare decisions. And I struggle with the disparity in the 
argument that says no one should ever inappropriately intervene 
in a healthcare decision on behalf of a woman, and yet, we will 
tell that same woman later in life, Sorry, under ObamaCare, if 
you are too old to get a pacemaker--as the President himself 
said, you are better off just saying take a pain pill. You 
don't get a pacemaker. There seems to be a disparity in 
thinking that you--we would advocate you can't intervene and 
say the life you are carrying, if delivered alive, even if you 
are trying to destroy that life, or as the doctor indicated for 
late-term abortions, you pull one leg off then you pull the 
other leg off then you pull the arm off then you pull the other 
arm off. And as you have heard him describe before, you reach 
in with the clamps for something bulbous, and you know you have 
the skull. You rip that off.
    And as Mr. King was trying to point out, anybody who does 
those things to a puppy, everybody in the country would be 
demanding they go to prison. But we have elevated this 
procedure to such a high level that the highest court in the 
land could say, Hey, that baby is your property. You can do 
whatever you want with it.
    So I won't be cheering today. I will remain broken hearted 
for my country and for the success Margaret Sanger has had in 
advocating for eugenics and genocide and this country's 
participation in what she hoped to achieve.
    I yield back.
    Mr. Franks. And I thank the gentleman.
    And I now yield to Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    This has been an unusual hearing in a number of respects, 
but I would like to ask Ms. Johnson just one question, because 
over the past several years, there have been a marked increase 
in the number of States passing targeted regulations for 
abortion providers making it practically impossible, certainly 
a lot, lot more difficult for safe abortions to occur and other 
legislative measures designed to impede women's safe and legal 
medical care.
    Can you discuss the impact, in your view, that such laws 
have had on low-income women?
    Ms. Johnson. Thank you, Congressman, for your question.
    You are right, there are trap laws. Women have to often 
travel hundreds of miles because over 89 percent of counties 
don't have an abortion provider. There are also waiting periods 
which force women to wait additional days after they have 
already made a choice in health care.
    And the Hyde amendment exacerbates the barriers that 
already exist for low-income women or any woman who is seeking 
abortion services.
    It is interesting that we are bringing up slavery in this 
space. When you own somebody's decisionmaking, you own them. 
When you get to decide for them whether or not their body has 
value, you own them. When you decide they are valuable as black 
or not, you actually don't get to make that decision. We are 
valuable, and women are valuable.
    The Hyde amendment simply says set us free. We are not 
simple minded. We are not being duped. Women are choosing to be 
pregnant and have children. The majority of women who have 
abortion are parents. They care. They care about their 
families.
    The Hyde amendment is about increasing coverage of 
insurance. It is about returning decisionmaking back to women. 
It is about setting us free.
    Mr. Conyers. Do you think we should consider repealing the 
Hyde amendment or move forward with other legislation since--
since we are closing out this subject?
    Ms. Johnson. Yes. We should repeal the Hyde amendment. 
There are a lot of support from the American people.
    As a matter of fact, there's strong support among 
millennials, among African Americans, and Latino voters in 
particular, with millennials supporting the EACH Woman Act at 
66 percent; African American supporting at 68 percent, and 
Latinos supporting at 55 percent. So, yes, I think we need to 
repeal the Hyde amendment. And I think we need to pass the EACH 
Woman Act, and the American people agree.
    Mr. Conyers. Thank you so much.
    And I thank you, Mr. Chairman.
    Mr. Franks. And I thank the gentleman. And I will now yield 
to myself for 5 minutes.
    Ms. Grossu, I will begin with you. Will you, please, talk 
about the ironic juxtaposition between the amount of medical 
care available to a premature baby who is wanted and a live 
premature baby who is as a result of an abortion and deemed 
unwanted.
    Ms. Grossu. Thank you, Mr. Chairman, for sure.
    I would, first, like to make the distinction too that 
abortion is not health care. Killing your own child is not 
health care, and American taxpayers should not be funding this. 
And there is no such thing as a safe abortion either. Abortion 
is a very dangerous procedure. Having said that, I will go to 
your--your question.
    Essentially, a premature baby now can survive at 20 weeks 
post realization if given proper care and treatment, is--is 
able to make it. And this kind of care is being held in an 
incubator or being given oxygen using a little infant oxygen 
mask, even being kept warm to maintain body temperature of the 
baby. These types of treatments are given to babies because a 
woman decides that she wants that child. So that child's value 
is dependent on a person--another person's opinion of that 
child.
    So if the woman wants her child, that baby is going to be 
given the absolute best care that our medical communities have. 
And if that woman deems that she does not want that child, that 
child is thrown in the trash, as we have seen time and time 
again, as Jill Stanek has expressed, as the videos--we have 
seen the videos that the child is taken apart and the baby's 
body parts are being sold on the market.
    And so we are asking under this born-alive bill, that 
abortionists be required to give basic immediate care to a baby 
once that baby has taken his or her first breath. This--these 
are children who are outside of the vaginal canal. They are 
recognized as legal persons under our laws, and they should be 
protected.
    Mr. Franks. Well, thank you, Ms. Grossu.
    You know, I think that is--the profundity of all of this at 
times for me is that somehow, how do we separate the wanted 
child from the unwanted child. It occurs to me that if we say 
that that child is unwanted, that we say nothing about the 
child. We say only about something about those of us around the 
child.
    And if, indeed, we have come to the point where what gives 
a child the right to live and the right to protection is being 
wanted or unwanted, then all the dreams of the Founding Fathers 
are lost, and all of the things that those people out in 
Arlington National Cemetery died to preserve are lost. Because 
America's founding dream was this notion that all of us were 
created equal and these were rights given by God that this 
thing was a miracle, and that to secure that right, that is the 
reason governments came about. And that it had its power from 
consent of the government.
    You know, there is no way to articulate the tragedy of even 
losing even one little child. But I would suggest to you that 
something else is lost here, and that is it is not the dying 
that leaves scars, it is the killing. And when we create this 
stone in our hearts and in our conscious to where we are able 
to say this born-alive child is only protectable if they are 
wanted.
    Do you understand where we have come to as Americans? Do 
you understand what's left? If we don't want to protect a born-
alive child, then who--who should we protect? If killing a 
born-alive child is not wrong, then on what basis do we say 
anything is wrong? What protection do any of us have when, as a 
society, we harden our hearts to the extent that we will stand 
by and advocate and say it is a right to kill a born-alive 
child, and there should be no protection for that child?
    I do fear for my country. And I pray that somehow in the 
days ahead, that our country will begin to consider who we are. 
I would call upon Donald Trump to say who he is on this issue 
on born-alive protection. I would call on Hillary Clinton to do 
the same thing. I would call on the U.S. Senate to bring this 
bill up for a vote. Because if--if we are no longer committed 
to protecting born-alive children, then it is time to board the 
place up that we are in and go home, because the battle is 
lost. And this ideal that all of us were created equal and are 
children of God have slipped from us. And I for one do not 
believe that.
    I believe that Americans are still protectors of children. 
I believe that America's best days are still ahead. And I 
believe that some of the testimony we have had here today is 
the most compelling that I have heard in a long time.
    And I would just say to those of you that disagree, there 
is no hate in my heart toward you. But I would also say to 
something that William Wilberforce said a long time. He said--
and he was talking about slavery. He said, you can turn away, 
but you can never again say that you did not know. Today, you 
know that born-alive children are dying, and there are those of 
us trying to protect them. And I only pray that somehow that as 
it has happened somehow in the past in America, that we come to 
the conclusion that, you know what, this is not who we are, and 
we still hold these truths to be self-evident, that we are all 
created, and that makes us a miracle, and that is worth 
protecting.
    So thank you, all, for coming today. That concludes this 
Committee hearing.
    And I have a little script here. Without objection, all 
Members will have 5 legislative days to submit additional 
requests for the witnesses for additional materials for the 
record.
    And with that, God bless you all. This hearing is 
adjourned.
    [Whereupon, at 10:53 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

      Response to Hearing Question from Genevieve Plaster, M.A., 
           Senior Policy Analyst, Charlotte Lozier Institute

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             

   Letter from Melissa Ohden, Founder, The Abortion Survivors Network


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
